No. 19-7

IN THE

Supreme Court of the Anited States

SEILA Law LLC,

Petitioner,
Vv.

CONSUMER FINANCIAL PROTECTION BUREAU.

CERTIFICATE OF SERVICE

I, Jonathan S. Franklin, a member of the Bar of this Court, certify that on
this 16th day of December, 2019, three copies of the Brief of Amicus Curiae
Consumer Bankers Association In Support Of Neither Party were sent by first class

mail, postage prepaid, to:

Kannon K. Shanmugam Noel J. Francisco

Paul Weiss Solicitor General

2001 K Street, NW United States Department of
Washington, DC 20006 Justice

(202) 223-7325 950 Pennsylvania Avenue, NW

Washington, D.C. 20530
(202) 514-2217

Counsel for Petitioner Counsel for CFPB

I further certify that all parties required to be served have been served.

 
   
 

  

mathan S. Franklin
ORTON ROSE FULBRIGHT US LLP
99 9th Street, N.W., Suite 1000
Washington, D.C. 20001

(202) 662-0466

Counsel for Amicus Curiae
Consumer Bankers Association
